No. 20-695
IN THE

Supreme Court of the United States
LARRY THOMPSON,
Petitioner,

v.

POLICE OFFICER PAGIEL CLARK, SHIELD #28472;
POLICE OFFICER PAUL MONTEFUSCO, SHIELD #10580;
POLICE OFFICER PHILLIP ROMANO, SHIELD #10580;
POLICE OFFICER GERARD BOUWMANS, SHIELD #2102,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the
Brief in Opposition contains 6,276 words, excluding the parts of the document
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Dated:

New York, New York
February 3, 2021

/s/ Richard Dearing
RICHARD DEARING
Chief, Appeals Division
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, New York 10007
212-356-2500
rdearing@law.nyc.gov

